February 19, 2020
Honorable Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543-001
RE:

Uzuegbunam, et al., v. Preczewski, et al.
Case No. 19-968

Dear Mr. Harris:
Pursuant to Supreme Court Rule 37.2(a), Respondents Stanley C.
Preczewski, et al., give blanket consent to the filing of amicus curiae briefs in
support of either or of neither party in this case.
Sincerely,
/s/Andrew A. Pinson
Andrew A. Pinson
Counsel for Respondents
cc: John J. Bursch
Counsel for Petitioners

